No. 19-387

 

 

IN THE

Supreme Court of the Anited States

AMBAC ASSURANCE CORPORATION,
Petitioner,

v.

FINANCIAL OVERSIGHT AND MANAGEMENT BOARD FOR
PUERTO RICO, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,542 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 11, 2019.

 

Colin Casey Hofan
Wilson-Epes Printing Co., Inc.
